No.

 

IN THE
Supreme Court of the United States

FRANCISCO FELIX,
Petitioner
v.

UNITED STATES,
Respondent

On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Ninth Circuit

Motion for Leave to Proceed In Forma Pauperis

Pursuant to 18 U.S.C. ยง 3006A and Supreme Court Rule 39, the petitioner,
Francisco Felix, asks for leave to file a Petition for Writ of Certiorari to the U.S.
Court of Appeals for the Ninth Circuit without pre-payment of fees or costs and to
proceed in forma pauperis.

Petitioner was represented by counsel appointed pursuant to 18 U.S.C.
ยง 3006A on appeal to the Court of Appeals for the Ninth Circuit.

Respectfully submitted,

Date: June 1, 2021

ELLIS M. JOHNSTON III

Clarke Johnston Thorp & Rice PC
180 Broadway Suite 1800

San Diego, CA 92101
619-756-7632

Email: trip@cjtrlaw.com

Counsel for Petitioner

 

 
